No. 20-1318

SUPREME COURT OF THE UNITED STATES

Vincent W. Shack,
Petitioner,
vs.

NBC UNIVERSAL MEDIA, LLC et al,
IMG WORLDWIDE, INC,
LADIES PROFESSIONAL GOLF ASSOCIATION,
SAMSUNG ELECTRONICS AMERICA INC., AND DOES 1 TO 10
Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit

REPLY TO RESPONDENTS' OBJECTION TO PETITIONER'S
WRIT OF CERTIORI

Vincent W. Shack
vgreengolf@aol.com
64337 Doral Drive
Desert Hot Springs, CA 92240
Telephone: (760) 218-9777

REPLY TO RESPONDENTS' OBJECTION TO PETITIONER'S
WRIT OF CERTIORI
Pursuant to Rule 15.6 of the Rules of the Supreme Court of the United States,
Petitioner Vincent Shack hereby replies to the Respondents' Objections to Petitioner's
Writ for Certiorari, filed April 21, 2021 ("Objection"). As discussed below,
Respondents fails to substantiate their claims that the Petitioner's Writ for Certiorari
is either procedurally improper or that the Court lacks jurisdiction to hear this case.
To the contrary, Petitioner appropriately appealed the decision of the United States
District Court for the Central District of California to the United States Court of
Appeals for the Ninth Circuit prior to filing an appeal to this Court. Accordingly,
Respondents' objections to Petitioner's Writ for Certiorari should be dismissed.

RULE 29.6 CORPORATE DISCLOSURE STATEMENT

Vincent W. Shack has no parent corporation and no publicly held company owns
10% or more of its stock.

ii. Table of Contents
Reply to Respondents' objection to Petitioner's writ of certiorari

1

The Federal Rules of Civil Procedure Provide for Relief from
a final judgement in certain cases

1-3

Petitioner's case is not frivolous

3-4

iii. Table of Authorities
Cases
Pioneer Investment Services Co. v. Brunswick Associates, Ltd.
Partnership, 507 U.S. 380, 395 (1992)

2-3

Statutes
California's "Strategic Lawsuits Against Public Participation,"
(anti-SLAPP) 425.16. Constitutional Law § 55

4

Constitutional Provisions
Federal 42 U.S.C. § 1983 (First Amendment)

2, 3

Federal Rules of Civil Procedure, Rule 60(b)(1)

1,2,3

1

REPLY TO RESPONDENTS' OBJECTION TO PETITIONER'S
WRIT OF CERTIORI
Pursuant to Rule 15.6 of the Rules of the Supreme Court of the United States,
Petitioner Vincent Shack hereby replies to the Respondents' Objections to Petitioner's
Writ for Certiorari, filed April 21, 2021 ("Objection"). As discussed below,
Respondents fails to substantiate their claims that the Petitioner's Writ for Certiorari
is either procedurally improper or that the Court lacks jurisdiction to hear this case.
To the contrary, Petitioner appropriately appealed the decision of the United States
District Court for the Central District of California to the United States Court of
Appeals for the Ninth Circuit prior to filing an appeal to this Court. Accordingly,
Respondents' objections to Petitioner's Writ for Certiorari should be dismissed.
THE FEDERAL RULES OF CIVIL PROCEDURE PROVIDE FOR RELIEF
FROM A FINAL JUDGEMENT IN CERTAIN CASES

Petitioner believes the Ninth Circuit erroneously dismissed his appeal due to
an untimely filing. However, even if the Court determines that Petitioner's appeal is
not based on a prior ruling from either the California State Supreme Court of the
Ninth Circuit Court of Appeals, it may still consider the Petition on its merits
pursuant to the Federal Rules of Civil Procedures. In particular, Rule 60(b), which
addresses relief from a final judgment or order, clearly states that "the court may
relieve a party or its legal representatives from a final judgment, order or proceeding"
for a number of reasons, including "mistake, inadvertence, surprise, or excusable
neglect." Federal Rules of Civil Procedure, Rule 60(b)(1) (Pioneer Investment Services

2

Co. v. Brunswick Associates, Ltd. Partnership, 507 U.S. 380, 395 (1992). In this
instance, Petitioner believes it would be appropriate for the court to grant certain
allowances on the basis of inadvertence and excusable neglect. As the Court is aware,
Petitioner is a pro se litigant and has been fighting to have his day in court for nearly
12 years. While most people would just walk away, especially in the face of big
corporations such as NBC and Samsung, there are those of us who believe that justice
should be afforded to every American, even those without deep pockets. This is what
Petitioner has been fighting for all along — the right to have his case heard, on the
merits, by a court of competent jurisdiction. And although there may have been
inadvertent missteps along the way, as one would expect from someone who is not an
attorney especially facing all the challenges we have endured in this global COVID
pandemic, Petitioner has dutifully sought to meet every rule of procedure to the best
of his ability. In filing an appeal from the Ninth Circuit, Petitioner relied on advice
provided by Supreme Court personnel who noted that a petition could be filed once a
final decision was rendered by the U.S. Court of Appeals. Upon receiving that final
determination from the Ninth Circuit of Appeal, Petitioner timely filed an appeal
with the Supreme Court in the hopes that at last the injustice that took place nearly
12 years ago would finally be corrected.
The Court may also provide relief from judgment for "any reason that justifies
relief." Federal Rules of Civil Procedure, Rule 60(b)(6). In their Objections,
Respondents would like the Court to believe this case is about the Bivens holding.
That is not quite the total basis for this appeal. This case is really about the First

3
Amendment and whether this most sacred right can be used to permit unprovoked
violence against an innocent American citizen. The First Amendment of the United
States Constitution was developed by the founding fathers to ensure freedom of
speech to American citizens in most reasonable situations. This constitutional right
applies to various forms of expressions, both oral and written, but was never intended
to be used to justify the physical assault of an American citizen. Notwithstanding,
the lowers courts in the preceding cases have permitted this travesty. Petitioner
submits that the improper application of the First Amendment permitted by the
lower courts threatens to extend application of this amendment beyond any limits
contemplated by the framers, while undermining the Petitioner's right to due process
under the law. This Court has the jurisdiction to correct this unjust application of
the law and is urged to do so under the authority granted by Rule 60(b).
In addition, as this Court has found in the past, an untimely filing is not an
automatic bar to having the subsequent appeal heard. In such cases, the Court may
also consider whether equitable considerations require it to treat the filing as it were
timely. The Court may also relieve Petitioner from an untimely filing by invoking
the "unique circumstances" or "lulling doctrine." Petitioner respectfully requests that
the Court accept this filing as timely and decide on the merits or remand back to the
Ninth Circuit for further consideration.
PETITIONER'S CASE IS NOT FRIVOLOUS
In their Objections, Respondent assert that Petitioner's second filing of its
Petition is frivolous. Nothing could be further from the truth. As noted above, Mr.

4

Shack has worked diligently over the last 12 years to have his claims recognized by
a court of competent jurisdiction. The idea that a person can be assaulted without
repercussions for the perpetrators is inconceivable in a country where the rule of
law is one of the most important principles. To allow large corporations to avert
their responsibility by manipulating the California anti-SLAPP law to permit
violence against an innocent spectator undermines the law's intent to protect free is
a real travesty. Respondents are well aware that Petitioners' original compliant
focused on violence committed against him at a professional golf tournament. There
was never an act that threatened the free speech of the Respondents.
Further, as noted above, Petitioner sought to follow the Courts rule of
procedure. When Petitioner filed his original Petition for Writ with the Court, he
was informed that he would first need to obtain a final determination from a court
of appeals. Following those direction, Petitioner went back and sought an appeal
from the Ninth Circuit, which was ultimately dismissed due to untimely filing.
Petitioner was then informed that, upon receipt of a final determination from the
Court of Appeals, it would be appropriate to re-file his Petition for Writ of Certiorari
with this Court, which he ultimately did on March 08, 2021. Thus, Petitioner
continued to operate in good faith and follow the requirements as explained to him
to the best of his ability. For these reasons, Petitioner's quest to seek justice from
this Court is far from frivolous and Respondent's suggestion that damages are
warranted should be dismissed.

RESPECTFULLY SUBMITTED this 13th day of May, 2021.
Dated:

5

2 teaPlease see attached

Sign:
Vincent W. ack
Plaintiff, pro se

JURAT
A notary public or other officer completing this certificate verifies only the
identity of the individual who signed the document to which this certificate
is attached, and not the truthfulness, accuracy, or validity of that document.

State of California
County of Riverside

Subscribed and sworn to (or affirmed) before me on this 13
20 21

by

day of May

Vincent Wayne Shack

proved to me on the basis of satisfactory evidence to be the person(s) who appeared
before me.
I.

a

Signature

NOTARY PUBLIC - CALIFORNIA I
RIVERSIDE COUNTY
My Comm. Expires Minh 12, 2023

inenrt./OLL-14C----43...-e0
(Seal)

OPTIONAL INFORMATION

DESCRIPTION OF THE ATTACHED DOCUMENT
Certificate of Service
(Title or description of attached document)

Jurat
(Title or description of attached document continued)

Number of Pages

Amaya Duro
comm. #2280537

Document Date

Additional information

2015 Version www.NotaryClasses,com 800-873-9865

INSTRUCTIONS
The wording of all Jurats completed in Califomia after January 1, 2015 must be in the
form as set forth within this Jurat There am no exceptions. If a Jurat to be completed
does not follow this form, the notary must correct the verbiage by using a jurat stamp
containing the correct wording or attaching a separate jurat form such as this one with
does contain the proper wording. In addition, the notary must require an oath or
affirmation from the document signer regarding the truthfulness of the contents of the
document. The document must be signed AFTER the oath or affirmation, If the document
was previously signed, It must be re-signed in front of the notary public during the jurat
process.
State and county information must be the state and county where the
document signer(s) personally appeared before the notary public.
Date of notarization must be the date the signer(s) personally
appeared which must also be the same date the jurat process is
completed.
Print the name(s) of the document signer(s) who personally appear at
the time of notarization.
Signature of the notary public must match the signature on file with the
office of the county clerk.
The notary seal impression must be clear and photographically
reproducible. Impression must not cover text or lines. If seal impression
smudges, re-seal if a sufficient area permits, otherwise complete a
different jurat form.
Additional information Is not required but could help
to ensure this jurat is not misused or attached to a
different document.
Indicate title or type of attached document, number of
pages and date.
Securely attach this document to the signed document with a staple.

